Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   MEDICAID THIRD-PARTY
     LIABILITY SAVINGS
      INCREASED, BUT
    CHALLENGES REMAIN




                    Daniel R. Levinson
                     Inspector General

                      January 2013
                     OEI-05-11-00130
EXECUTIVE SUMMARY: MEDICAID THIRD-PARTY LIABILITY SAVINGS
INCREASED, BUT CHALLENGES REMAIN
OEI-05-11-00130


WHY WE DID THIS STUDY

Millions of Medicaid beneficiaries have additional health insurance through third-party
sources. If beneficiaries have another source of payment, that source should pay before
Medicaid does, up to the extent of its liability. Prior studies from the Office of Inspector
General and the Government Accountability Office reported that State Medicaid agencies
(States) encountered challenges getting third parties to pay when they are responsible,
leading to hundreds of millions of dollars in potential losses each year. To address these
challenges, the Deficit Reduction Act of 2005 contained provisions designed to enhance
States’ ability to identify and recover payments from liable third parties.

HOW WE DID THIS STUDY

We determined trends in Medicaid third-party liability (TPL) savings from 2001 to 2011
by analyzing data that States reported to the Centers for Medicare & Medicaid Services
(CMS). We also collected data from States on the amount of money at risk of not being
recovered. Finally, we surveyed States regarding factors that (1) helped them save
money that third parties should pay and (2) made saving money challenging.

WHAT WE FOUND

Medicaid TPL savings increased; however, $4 billion remains at risk of not being
recovered. States’ reported savings from cost avoidance drove the growth in TPL
savings, although savings from recoveries also contributed. States reported that
improvements to their processes facilitated savings. Despite these improvements, States
reported longstanding challenges with third parties when trying to identify insurance
coverage and recover payments. In addition, States reported challenges—caused, they
say, by laws and regulations—that hinder the recovery of payments.

WHAT WE RECOMMEND

Since 2001, States have made sizable gains in TPL savings. Improved State processes
and congressional action seem to have had some effect. However, a significant amount
of money remains at risk of not being recovered. On the basis of the amount of money
that is at risk and the longstanding challenges that States continue to face, we recommend
that CMS: (1) work with States to address longstanding challenges related to
identification of insurance coverage and recovery of payments, (2) address States’
challenges with 1-year timely filing limits for Medicare and TRICARE, and (3) work to
strengthen enforcement mechanisms designed to deal with uncooperative third parties.
CMS concurred with our recommendations.
           TABLE OF CONTENTS

Objectives .................................................................................................... 1
Background ................................................................................................. 1
Methodology ............................................................................................... 8
Findings ..................................................................................................... 12
           Medicaid TPL savings increased, but 44 States reported
           $4 billion is at risk of not being recovered .................................... 12
           States reported that improvements to their processes facilitated
           TPL savings, but challenges remain .............................................. 16
Conclusion and Recommendations ........................................................... 26
           Agency Comments and Office of Inspector General Response .... 28
Appendixes ................................................................................................ 30
           A: Challenges by State ................................................................. 30
           B: Agency Comments ................................................................... 44
Acknowledgments ..................................................................................... 50
                   OBJECTIVES
                       1. To determine trends in State Medicaid agencies’ cost-avoided amounts
                          and amounts recovered through pay and chase from 2001 to 2011.
                       2. To describe factors that influenced State Medicaid agencies’ ability to
                          maximize cost avoidance.
                       3. To describe factors that influenced State Medicaid agencies’ ability to
                          maximize payments recovered through pay and chase and to estimate
                          the amount of money that remains at risk of not being recovered.

                   BACKGROUND
                   Millions of Medicaid beneficiaries have additional health insurance
                   through third-party sources. For example, from 2008 to 2010, an estimated
                   15 percent (approximately 6.8 million) of Medicaid beneficiaries had
                   employer-sponsored health insurance annually. 1 During this same period,
                   an estimated 14 percent (approximately 6.3 million) of beneficiaries had
                   Medicare. 2 Prior studies by OIG and the Government Accountability
                   Office (GAO) reported that States encountered challenges to identifying
                   and recovering payments from third parties, leading to hundreds of millions
                   of dollars in potential losses each year. 3, 4 To address these challenges, the
                   Deficit Reduction Act of 2005 (DRA) contained provisions designed to
                   enhance State Medicaid agencies’ (States) ability to identify and obtain
                   payments from liable third parties.
                   Medicaid Third-Party Liability
                   Medicaid is intended to be the payer of last resort. 5, 6 If Medicaid
                   beneficiaries have another source of payment for health services or items
                   covered by Medicaid, that source should pay before Medicaid does, up to


                   1
                     Office of Inspector General (OIG) analysis of U.S. Census Bureau Current Population
                   Survey (CPS) 2008, 2009, and 2010 data (collected in 2009, 2010, and 2011). The CPS is
                   a household survey on employment and unemployment. It also collects data on health
                   insurance coverage.
                   2
                     Ibid.
                   3
                     OIG, Medicaid Recovery of Pharmacy Payments From Liable Third Parties,
                   OEI-03-00-00030, August 2001.
                   4
                     GAO, Medicaid Third-Party Liability: Federal Guidance Needed to Help States Address
                   Continuing Problems, GAO-06-862, September 2006.
                   5
                     Centers for Medicare & Medicaid Services (CMS), State Medicaid Manual, Pub. No. 45,
                   ch. 3, § 3900.1.
                   6
                     In a few limited circumstances, Medicaid is not the payer of last resort. For example,
                   Ryan White programs are the payer of last resort, even with respect to Medicaid. Ryan
                   White Comprehensive AIDS Resources Emergency Act of 1990, P.L. 101-381, § 2615; 42
                   U.S.C. 300ff-25.

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                1
                   the extent of its liability. These other sources of payment are referred to as
                   third parties.
                   Third parties include health insurers; self-insured plans; group health plans;
                   Government-sponsored health insurance, such as Medicare and TRICARE;
                   service benefit plans; managed care organizations; pharmacy benefit
                   managers; and other parties that are, by statute, contract, or agreement,
                   legally responsible for payment of a claim for a health care item or
                   service. 7 CMS interprets other parties to include third-party administrators,
                   fiscal intermediaries, and managed care contractors that administer benefits
                   on behalf of the risk-bearing plan sponsor. 8 Further, CMS includes medical
                   support from absent parents, automobile insurance, workers’ compensation,
                   and probate-estate recoveries as third parties. 9
                   To ensure that Medicaid does not pay for services for which third parties
                   are liable, States conduct a number of coordination of benefits activities.
                   They include identifying liable third parties, preventing payment on claims
                   for which third parties are liable, and recovering reimbursements from
                   liable third parties.
                   Identifying Third Parties
                   Identifying third parties is the first step to ensuring that they pay claims for
                   which they are liable. Federal law requires States to take reasonable
                   measures to identify liable third parties that are responsible for payment of
                   claims for health care items or services. 10 Part of identifying potentially
                   liable third parties is verifying coverage. States must ask beneficiaries at
                   the time of their initial applications for and redeterminations of Medicaid
                   eligibility whether they have other sources of health coverage. In addition,
                   States must independently identify health coverage of Medicaid
                   beneficiaries by matching States’ coverage files with those of third parties.
                   States must also conduct diagnosis and trauma edits on Medicaid claims to
                   identify potential casualty and liability coverage. 11
                   States’ identification systems require continual updates of beneficiary
                   information and potential third-party liability (TPL) information to
                   accurately identify liable third parties. Regular updates allow States to
                   make new matches, but also to update information from previous matches
                   because beneficiary coverage status can change over time.

                   7
                     Social Security Act § 1902(a)(25), 42 U.S.C. § 1396a(a)(25).
                   8
                     CMS, State Medicaid Director Letter, December 15, 2006 (SMD #06-026), Questions
                   and Answers. Accessed at http://downloads.cms.gov/cmsgov/archived-
                   downloads/SMDL/downloads/SMD121506QandA.pdf on August 29, 2012.
                   9
                     CMS, State Medicaid Manual, Pub. No. 45, ch. 3, § 3901.
                   10
                      Social Security Act § 1902(a)(25), 42 U.S.C. § 1396a(a)(25).
                   11
                      42 CFR § 433.138; CMS, State Medicaid Manual, Pub. No. 45, §§ 3902 and 3903.

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)              2
                   Third-Party Payment
                   When States identify probable TPL, they, or a contractor operating on their
                   behalf, use two methods to ensure that Medicaid is the payer of last resort:
                   cost avoidance and pay and chase.
                   Cost Avoidance. Cost avoidance is the method that States use to avoid
                   payment when other insurance resources are available to the beneficiary.
                   When States recognize claims as belonging to beneficiaries who have other
                   insurance, they will deny payment and return the claims to providers, who
                   are then required to bill and collect payment from any liable third parties.
                   If States have electronic claims processing systems, they can automatically
                   deny payment when claims enter their systems. Federal regulations
                   generally require States to use cost avoidance when probable TPL is
                   established. 12
                   Cost avoidance is the most cost-effective way to ensure that Medicaid is the
                   payer of last resort. When States avoid costs, they do not pay money
                   upfront or spend resources on recovery. Once States deny payment and
                   notify providers of a liable third party, providers should bill future claims to
                   the third party first, rather than the States.
                   Pay and chase. In contrast, the pay-and-chase method occurs when States
                   pay providers for submitted claims and then attempt to recover payments
                   from liable third parties. States may pay and chase claims for two primary
                   reasons: postpayment identification of TPL and Social Security Act
                   exceptions to cost avoidance. First, if States identify probable TPL after
                   payment, Medicaid will have to pay and chase claims. If a third party, such
                   as Medicare, awards retroactive eligibility to a beneficiary, Medicaid will
                   also have to pay and chase claims. 13 Second, the Social Security Act
                   requires that States pay and chase claims instead of using cost avoidance
                   when (1) the service is prenatal care, (2) the service is preventive pediatric
                   care, or (3) coverage is through a parent whose obligation to pay support is
                   enforced by the States’ child enforcement agency. 14 However, the




                   12
                      42 CFR § 433.139(b).
                   13
                      Because Medicaid beneficiaries assign to the States any rights they may have to support
                   or payment from a liable third party, States are able to pay and chase claims if a third party
                   awards retroactive coverage. Instances in which Medicaid beneficiaries may obtain
                   retroactive health coverage from a liable third party include court-ordered health coverage
                   and Medicare retroactive eligibility.
                   14
                      Social Security Act §§ 1902(a)(25)(E) and (F), 42 U.S.C. §§ 1396a(a)(25)(E) and (F).
                   See also 42 CFR § 433.139(b)(3).

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                      3
                   President’s fiscal year (FY) 2013 budget contained a provision to remove
                   these Social Security Act exceptions to cost avoidance to strengthen TPL. 15
                   In general, States obtain recoveries by billing third parties directly and
                   receiving reimbursements from them. For instance, States commonly use
                   this process when trying to obtain recoveries from third-party health
                   insurance.
                   Some types of third parties require specialized pay-and-chase recovery
                   processes. Specifically, States engage in specialized recovery processes
                   when seeking reimbursements from Medicare and settlements involving
                   either casualty insurance or probated estates.
                   When seeking reimbursements from Medicare, States may not bill
                   Medicare directly. Instead, they can direct providers to bill Medicare for
                   claims for which States have already paid providers. States must decide
                   whether to take this step and, if so, how they should obtain reimbursement
                   from providers. Some States choose to immediately recover money from
                   providers for Medicare-related claims and do not wait for providers to be
                   reimbursed by Medicare. Some States give providers a defined period
                   (e.g., 60 days) to receive reimbursement from Medicare before they recover
                   money or disallow future payments. These States may not recover money
                   during this period, or afterward, if providers can prove that they did not
                   receive reimbursement from Medicare. Other States do not attempt to
                   recover payments for Medicare-related claims for which they have paid
                   providers.
                   In casualty insurance and probated estates, States may have to negotiate or
                   wait for a settlement or court decision before they can recover money for
                   billed claims. Casualty recoveries will be limited to the amount of the
                   settlement that is designated for reimbursement of medical costs. 16 States’
                   ability to recover money from probated estates depends on the value of the
                   estates and whether other creditors are also making claims against them.




                   15
                      Office of Management and Budget, Fiscal Year 2013 Budget of the U.S. Government:
                   Cuts, Consolidations, and Savings. Accessed at
                   http://www.whitehouse.gov/sites/default/files/omb/budget/fy2013/assets/ccs.pdf on
                   August
                   16
                           29, 2012.
                      Arkansas Dept. of Health and Human Services v. Ahlborn, 547 U.S. 268 (2006).

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                4
                   To obtain pay-and-chase recoveries from absent parents, States enter into
                   cooperative agreements with State-run child support enforcement
                   agencies. 17
                   During the pay-and-chase process, States may not recover all amounts
                   billed to third parties for several reasons. States may bill third parties for
                   claims for which they are not liable. This may occur when a service for
                   which Medicaid paid is not covered by the third party or the third party did
                   not cover the beneficiary on the date of service. Alternatively, third parties
                   may be liable for a claim but be uncooperative, refusing to pay or to
                   process a claim. In these cases, the third party may refuse to pay the entire
                   claim or try to pay a lesser amount. States may contest the denial and
                   resubmit the claim to the third party. Finally, States may determine that it
                   is no longer cost-effective to try to recover a reimbursement on a claim.
                   Based on Federal regulations and State Medicaid plans, each State sets a
                   dollar threshold or other guidelines for following up on claims owed to
                   them by liable third parties. 18 Using the threshold or guidelines amount,
                   States determine whether it is cost-effective to devote resources to
                   following up on an unpaid claim. 19
                   Hiring TPL Contractors
                   States may choose to conduct all benefits coordination activities themselves
                   or hire a contractor to conduct some or all of these activities. The range of
                   responsibilities that States delegate to contractors varies. For instance,
                   some States delegate all coordination of benefits to contractors. Other
                   States conduct most coordination of benefits activities themselves but have
                   agreements with contractors to perform certain limited functions.
                   TPL Reporting
                   States submit a Quarterly Expense Report (CMS-64) to CMS. The
                   CMS-64 is a statement of expenditures for which States are entitled to
                   Federal reimbursement. 20 The CMS-64 also includes information on
                   recoveries, including TPL-related recoveries.
                   The CMS-64.9A, an attachment to the CMS-64, describes TPL activity. On
                   the CMS-64.9A, States must report the amounts they avoided paying to
                   third parties and the amounts they recovered from third parties. Some


                   17
                      42 CFR § 433.151. Pursuant to 42 CFR § 433.151, States must enter into written
                   cooperative agreements for enforcement of rights to and collection of third-party benefits
                   with at least one of the following entities: State child support enforcement agency, any
                   appropriate agency of any State, and appropriate courts and law enforcement officials.
                   Collections through cooperative agreements are a specific line item on the CMS-64.9A.
                   18
                      42 CFR § 433.13 (f)(2).
                   19
                      Ibid.
                   20
                      42 CFR § 430.30(c); CMS, State Medicaid Manual, Pub. No. 45, § 2500(A)(1).

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                       5
                   types of third parties, such as Medicare, are specific line items on this
                   attachment. However, not all types of third parties are listed separately.
                   The CMS-64.9A does not include certain types of information. First,
                   regarding pay and chase, CMS does not require States to report the amount
                   of money they attempted to recover or the amount denied by third parties.
                   Second, regarding cost avoidance, States do not report how they calculated
                   cost avoidance. CMS does not have a standard formula for calculating cost
                   avoidance, and States’ methods for calculating it vary. For instance, some
                   States calculate the amount Medicaid avoided paying as the difference
                   between the amount that Medicaid would have paid and the amount that
                   Medicaid actually paid. By contrast, other States report the total amount of
                   a claim as savings, regardless of what Medicaid would have covered.
                   States submit the CMS-64 and its attachments through the Medicaid
                   Budget and Expenditure System (MBES) and certify that the dollars
                   reported are correct.
                   CMS uses the reported recovery information, including TPL-related
                   recoveries, to compute the Federal financial participation (FFP) amount for
                   the States’ Medicaid program costs. However, CMS does not factor
                   reported cost avoidance into the FFP amount because it does not involve
                   dollars returned to States by third parties.
                   TPL Provisions of the DRA
                   The DRA contained provisions that were designed to enhance States’
                   ability to identify and recover payment from liable third parties. The law
                   clarified the list of entities considered third parties by including specific
                   entities that were previously not listed, such as pharmacy benefit
                   managers. 21 In addition, the DRA required that States have laws requiring
                   specified health insurers and certain other third parties to (1) provide States
                   with information on health insurance coverage, (2) accept the State’s right
                   of recovery, (3) allow States 3 years after the date of service to submit
                   claims, and (4) not deny or refuse to pay claims for procedural reasons. 22
                   These provisions took effect on January 1, 2006. 23 According to CMS staff,
                   as of April 2012, all States except Florida and the District of Columbia had
                   the necessary laws in place.


                   21
                      DRA, P.L. 109-171 § 6035(a), amending Social Security Act § 1902(a)(25), 42 U.S.C.
                   § 1396a(a)(25).
                   22
                      DRA, P.L. 109-171 § 6035(b)(3), amending Social Security Act § 1902(a)(25), 42
                   U.S.C. § 1396a(a)(25). See also CMS, State Medicaid Director Letter, December 15, 2006
                   (SMD #06-026), Questions and Answers. Accessed at
                   http://downloads.cms.gov/cmsgov/archived-
                   downloads/SMDL/downloads/SMD121506QandA.pdf on August 29, 2012.
                   23
                      DRA, P.L. 109-171, § 6035(c), 42 U.S.C. § 1396a note.

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)              6
                   There are some exceptions to the 3-year timely filing rule under the DRA.
                   For instance, when Medicare is the liable third-party payer, fee-for-service
                   providers have only 1 year after the date of service to submit claims under
                   provisions of the Patient Protection and Affordable Care Act (ACA). 24 If
                   Medicare awards a Medicaid beneficiary retroactive eligibility, the 1-year
                   timely filing requirement may be waived. 25 In addition, TRICARE claims
                   filing regulations, issued before enactment of the DRA, also require that
                   claims be submitted no later than 1 year after the date of service. 26
                   Related Work
                   OIG has reported problems with TPL. In 2001, OIG found that Medicaid
                   was at risk of losing over 80 percent of the dollars it paid and chased for
                   pharmacy claims in 32 States. 27 It also found that almost three-quarters of
                   States reported that third parties refused to process or pay pharmacy
                   claims. 28
                   GAO has also reported problems with TPL. A 2006 GAO report found that
                   States encountered problems verifying which Medicaid beneficiaries had
                   private insurance and recovering payments from third parties. 29 Not all
                   third parties were willing to provide access to their coverage files, and
                   some third parties imposed barriers to coverage identification. For
                   example, some pharmacy benefit managers ignored or denied States’
                   requests for verification information, citing privacy provisions in the
                   Health Insurance Portability and Accountability Act of 1996 (HIPAA) or
                   claiming that they were not liable parties. Other third parties and
                   contractors would not participate in data-matching agreements.
                   Fourteen States estimated their combined losses because of problems
                   recovering payments from third parties to be between $184 million and
                   $196 million per year. 30



                   24
                      ACA, P.L. 111-148 § 6404, amending Social Security Act §§ 1814(a)(1), 1835(a)(1),
                   and 1842(b)(3)(B), 42 U.S.C. §§ 1395f(a)(1), 1395u(b)(3)(B), and 1395n(a). The
                   Secretary may specify exceptions to the 1 calendar year period under each provision.
                   25
                      If the Medicare contractor determines that CMS’s conditions for the exception are met,
                   it may allow the provider a filing extension from the end of the sixth calendar month from
                   the month in which States recovered their money. See CMS, Medicare Claims Processing
                   Manual, Pub. No. 100-04, ch.1, § 70.7.3.
                   26
                      32 CFR § 199.7(d). TRICARE was formerly known as the Civilian Health and Medical
                   Program of the Uniformed Services and is still referred to as such in some regulations.
                   27
                      OIG, Medicaid Recovery of Pharmacy Payments From Liable Third Parties.
                   28
                      Ibid.
                   29
                      GAO, Medicaid Third-Party Liability: Federal Guidance Needed to Help States
                   Address Continuing Problems. The data in the report were collected prior to the DRA’s
                   effective date, although the report was published after the effective date.
                   30
                      Ibid.

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                  7
                   METHODOLOGY
                   To determine trends that influenced State savings from liable third parties,
                   we analyzed data on savings from cost avoidance and pay and chase, and
                   on money at risk of not being recovered. We also surveyed States
                   regarding factors that (1) helped them save money that third parties should
                   pay and (2) made saving money more challenging.
                   Scope
                   This study covered all 50 States and the District of Columbia.
                   The focus was on savings from fee-for-service claims and, to the extent that
                   they are included in States’ reports to CMS, managed care claims.
                   Approximately one-third of States included some information from
                   managed care claims in their CMS-64 reports.
                   We analyzed trends in State savings from 2001 to 2011, the period since the
                   last OIG study. Our assessment of factors that influenced State savings was
                   focused on more recent periods. We realized through extensive
                   conversations with States that collecting data on the factors that influenced
                   State savings for 11 years would be intensely burdensome to them. We also
                   realized that in some cases data were not available. Instead, we collected
                   data on these factors for as much of that time as was reasonable (e.g., point-
                   in-time, or FYs 2010 and 2011). These periods are described in more detail
                   below.
                   Data Sources and Data Collection
                   Annual TPL Data. We obtained State-reported CMS-64 and CMS-64.9A
                   data from MBES for each State for FYs 2001 through 2011. We used these
                   data to determine States’ total Medicaid expenditures and their savings
                   from, and trends in, cost avoidance and pay-and-chase over the 11-year
                   period. The data collected are totals, reflecting the Federal and State
                   shares.
                   Data Collection From States. In November 2011, we sent a data collection
                   instrument to each State’s TPL coordinator. The instrument had
                   two sections—a data request and a survey. We obtained a 100-percent
                   response rate to the data collection instrument, although some States could
                   not provide portions of the requested data. Where appropriate, item
                   response rates are included below.
                   We asked States to provide data on their recovery rate for pay-and-chase
                   claims and on the amount of money they believed was owed to them by
                   third parties. 31 We collected these data separately for Medicare, health
                   insurance, casualty insurance, and probated estates. The response rate for

                   31
                        All data collected directly from States also reflect both the Federal and State share.

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                        8
                   items in the data request section of the collection instrument ranged from
                   88 to 98 percent.
                   We collected data on States’ recovery rates in two ways. First, for
                   Medicare and health insurance, we asked States for the total amount that
                   they billed for FYs 2010 and 2011 and, of that, the total amount collected
                   for each year. We requested these data for only 2 years to reduce the
                   burden on States. Second, for casualty insurance and probated estates, we
                   asked States to report their rate of return for closed cases. We did not
                   specify a time period for the self-reported rates.
                   We also asked States to provide data on the amount of money that they
                   considered to be at risk of not being recovered. To do so, we asked States
                   to provide their best estimate of money that they believed was owed to
                   them from third parties. To reduce the likelihood that claims still in the
                   process of being paid would be reported as dollars at risk of not being
                   recovered, we instructed States to include only dollars they had considered
                   to be at risk 6 months before the survey was due.
                   The survey section of the collection instrument focused on factors that
                   might influence States’ savings from third parties. We asked States which
                   activities were most useful for identification of third parties. We also asked
                   which factors had improved their ability to avoid costs or recover payments
                   since 2006. Similarly, we asked about challenges related to coordination of
                   benefits activities. Finally, we asked States about their CMS-64 reporting
                   activities, about their use of TPL contractors, and for basic program
                   information. The response rate for items in the survey section ranged from
                   96 to 100 percent.
                   Data Analysis
                   TPL Trends and Total Savings. We analyzed the data that States reported to
                   CMS to identify the percentage change in total savings from cost avoidance
                   and pay and chase between 2001 and 2011, the percentage change in the
                   total amount of money that States expended over these 11 years, and the
                   cumulative amount that States saved over this period. 32 We compared the
                   percentage change in States’ savings to the percentage change in total
                   Medicaid expenditures. We then calculated the percentage change in
                   savings related to cost avoidance, pay and chase, probated estates, and
                   subgroups of these categories that States report to CMS. To obtain the
                   cumulative amount in total savings, we summed all States’ cost avoidance
                   and pay-and-chase savings for all 11 years.



                   32
                     To account for inflation, we used the Consumer Price Index conversion factor to convert
                   to 2011 dollars.

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                 9
                   We analyzed differences among States; however, this information is not
                   included in this report. While we found differences among States, we did
                   not have contextual data on State demographics and other factors. Without
                   this contextual information, our analysis of State comparisons was largely
                   inconclusive.
                   Rates of Recovery. We calculated recovery rates both for Medicare and for
                   health insurance pay-and-chase claims. To calculate the recovery rate for
                   Medicare, we divided the amount of money each State collected from
                   Medicare in 2011 by the total amount that State billed to Medicare for
                   pay-and-chase claims. We also performed this calculation for health
                   insurance recoveries.
                   Money at Risk of Not Being Collected. To calculate the money at risk of
                   not being collected, we added up the money that States reported for
                   Medicare, health insurance, casualty insurance, and probated estates. For
                   Medicare and health insurance, we reported the dollars at risk exactly as
                   States reported them. For casualty insurance and probated estates, we
                   adjusted the amounts that States reported to provide a more accurate
                   account of the money that States are likely to recover. 33
                   Factors That Influence State Savings. We analyzed States’ responses to
                   survey questions about factors that influenced savings to determine those
                   that were most influential. We also reviewed States’ open-ended responses
                   to provide context for factors that States identified as “very challenging.”
                   Limitations
                   All data are State reported. We did not independently verify the accuracy
                   of data that States reported to CMS or to OIG.
                   Some portion of cost-avoided dollars cannot, by definition, be quantified.
                   For example, States cannot identify savings from cost avoidance that
                   occurs when a provider correctly submits a claim for reimbursement to a
                   third party rather than to Medicaid.
                   States’ calculations of cost avoidance may be affected by variations in
                   tracking methods. For example, some States track the entire amount that
                   was billed for a cost-avoided claim as savings, while others track only the
                   amount that Medicaid would have paid for that claim as savings. However,
                   these data are sufficient to represent broad trends in savings over time. It is
                   likely that States reported data in the same way in 2011 as in 2001.



                   33
                     To calculate a reasonable estimate of the amount that States might be able to recover
                   from casualty insurance and probated estates, we adjusted the raw numbers provided by
                   States by the rates of return for closed cases (data also provided by States).

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                    10
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)   11
                   FINDINGS
                   Medicaid TPL savings increased, but 44 States
                   reported $4 billion is at risk of not being recovered
                   Overall, States reported increased savings from both cost avoidance and pay
                   and chase between 2001 and 2011. Specifically, savings increased from
                   nearly $34 billion in 2001 to slightly more than $72 billion in 2011,
                   representing a 114-percent increase. However, because States generally were
                   not able to recover all of the money they went after, a significant amount
                   remains at risk of not being recovered. Cumulatively, 44 States reported
                   $4 billion is at risk. 34
                   States’ reported growth in cost-avoidance and pay-and-chase savings does
                   not appear to be tied to growth in Medicaid expenditures or in the
                   percentage of Medicaid beneficiaries with another source of insurance. For
                   example, reported expenditures increased 47 percent from 2001 to 2011,
                   compared to TPL’s 114-percent growth. Such growth suggests that TPL
                   savings outpaced growth in Medicaid expenditures. Further, the percentage
                   of beneficiaries with another source of health insurance generally remained
                   stable between 2002 and 2010. 35
                   States’ reported savings from cost avoidance drove growth in
                   TPL savings
                   States’ reported cost-avoidance savings accounted for most TPL growth
                   and total savings between 2001 and 2011. States’ reported savings from
                   cost avoidance grew 117 percent, from $33 billion to $70 billion, between
                   2001 and 2011. Cumulatively, States reported that they avoided paying
                   $512 billion from 2001 to 2011. Had States paid for these services,
                   reported Medicaid expenditures could have been 13 percent greater. See
                   Chart 1 for TPL savings trends from 2001–2011 by cost avoidance, pay and
                   chase, and probated estates.




                   34
                     The remaining seven States did not provide this information.
                   35
                     OIG analysis of U.S. Census Bureau CPS 2008, 2009, and 2010 data (collected in 2009,
                   2010, and 2011).

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)              12
Chart 1: TPL Savings From 2001 to 2011

 $80,000,000,000


 $70,000,000,000


 $60,000,000,000


 $50,000,000,000


 $40,000,000,000


 $30,000,000,000


 $20,000,000,000


 $10,000,000,000


                  $0
                          2001       2002          2003   2004    2005     2006   2007     2008       2009    2010   2011

                           Cost avoidance             Pay-and-chase recoveries    Probate-estate recoveries

Source: OIG analysis of CMS-64.9A reports, 2012.

                                 Although similar proportions of Medicaid beneficiaries have Medicare or
                                 health insurance as third-party payers nationally, Medicare makes up about
                                 80 percent of total costs avoided. A variety of factors contributes to this,
                                 including that cost avoidance is generally easier for Medicare claims than
                                 for other types of third parties. Because Medicare beneficiaries tend to
                                 keep Medicare after they become eligible, once States have third-party
                                 coverage information they can avoid payment for all future claims. In
                                 contrast, other forms of third-party coverage, such as health insurance
                                 obtained through an employer, are more likely to fluctuate and result in
                                 multiple updates to State systems.
                                 Although Medicare traditionally has been the largest driver of cost
                                 avoidance since 2001, States reported some recent gains in cost avoidance
                                 from third-party health insurance. For example, in 2001, health insurance
                                 made up 10 percent of total costs avoided; by 2011, it had grown to
                                 18 percent. These gains suggest that the DRA had some effect on States’
                                 ability to avoid costs, likely through improvements in States’ identification
                                 of third parties. See Chart 2 for more detail.




          Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                         13
         Chart 2: Cost-Avoidance Percentages Over Time, by Type of Third-Party Insurance

           100%
             90%
             80%
             70%
             60%
             50%
             40%
             30%
             20%
             10%
              0%
                       2001       2002      2003       2004   2005    2006     2007         2008   2009   2010    2011

                                                  Medicare     Health insurance         Other

         Source: OIG analysis of CMS-64.9A reports, 2012.


                   Increases in State recoveries also contributed to TPL savings
                   Although State recoveries through pay and chase make up only about
                   3 percent of total TPL savings, these recoveries are increasing. States’
                   pay-and-chase recoveries from health insurance, Medicare, casualty
                   settlements, and cooperative agreements increased by 61 percent, from
                   $1 billion to $1.6 billion, between 2001 and 2011. Cumulative
                   pay-and-chase recoveries over this period resulted in $14.7 billion in
                   savings for States.
                   As with cost avoidance, the proportion of pay-and-chase recoveries varies
                   by type of third-party. Specifically, pay-and-chase recoveries from health
                   insurance accounted for 50 percent of cumulative pay-and-chase recoveries
                   between 2001 and 2011, while Medicare accounted for 18 percent of such
                   recoveries. See Chart 3 for more detail.




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                        14
         Chart 3: Pay-and-Chase Percentages Over Time, by Type of Third-Party Insurance
           100%
             90%
             80%
             70%
             60%
             50%
             40%
             30%
             20%
             10%
               0%
                         2001      2002       2003        2004       2005       2006       2007        2008       2009       2010         2011

                            Medicare            Health insurance               Casualty            Cooperative agreements

         Note: Casualty insurance and cooperative agreements are other sources through which States may recover funds from third
         parties. Casualty coverage may be a source of TPL if Medicaid paid for medical expenses resulting from accidental injury that
         should have been covered by casualty insurance. Cooperative agreements assist States in pursuing a liable third party, for
         example, to identify parents who are obligated to pay for the health care of Medicaid recipients.
         Source: OIG analysis of CMS-64.9A reports, 2012.



                    Moreover, the percentage of recoveries from health insurance is growing.
                    In 2001, health insurance accounted for 42 percent of recoveries from pay
                    and chase, compared to 62 percent of total dollars recovered in 2011.
                    Similar to cost avoidance, these gains suggest that the DRA had some
                    effect on States’ ability to recover money, possibly because of an increased
                    ability to identify claims that need to be recovered or to the DRA’s
                    expansion of the timely filing limit to 3 years.
                    Despite increased savings, States reported potential recoveries
                    at risk
                    As of June 30, 2011, 44 States cumulatively reported $4.1 billion that they
                    believe is owed by third parties and is at risk of not being recovered. 36 This
                    sum includes Federal and State dollars. The term “dollars at risk” refers
                    only to claims that States pay and chase; cost-avoided dollars are never at
                    risk because they are never expended by States. Table 1 shows the money
                    that States report being owed by third parties.




                    36
                     Each State determined what dollars were at risk of not being recovered using its own
                    methodology. As a result, this amount represents varying time periods.

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                                                15
                   Table 1: Dollars at Risk of Not Being Recovered
                                                                                              Percentage of Dollars at
                    Type                                           Dollars at Risk
                                                                                                                 Risk

                    Health insurance                               $2,356,853,103                                     57%

                    Probated estates*                                $931,268,692                                     22%

                    Casualty*                                        $744,684,814                                     18%

                    Medicare                                         $110,868,962                                       3%

                        Total                                      $4,143,675,571                                    100%

                   *The dollars for probated estates and casualty reflect the average amount States expect to recover and consider to
                   be owed to them, not the entire amount of the probated estate or casualty claim.
                   Source: OIG analysis of data collection instrument responses, 2012.

                   The disparity between the amount that States tried to recover from
                   third-party health insurance and the amount actually collected may
                   contribute to high amounts of dollars at risk. On average, 45 States
                   reported recovering 18 percent of what they billed to third-party health
                   insurance in 2011. These low recovery rates may be due in part to States’
                   challenges to reimbursement, which are discussed in more detail later in the
                   report.
                   States experience higher recovery rates from Medicare than from
                   third-party health insurance, contributing to fewer dollars at risk. The
                   average recovery rate in 2011 for Medicare was 69 percent among the
                   32 States that were able to provide data. It is unclear why Medicare
                   recovery rates are higher, but one explanation could be that some States
                   automatically recover money from providers when Medicare is the third
                   party. By contrast, when a health insurance carrier is the third party, States
                   generally submit bills directly to the carrier and must wait for its response.

                   States reported that improvements to their processes
                   facilitated TPL savings, but challenges remain
                   States identified several factors that facilitated improvements in cost
                   avoidance and pay and chase, despite also reporting some longstanding
                   challenges. In general, process improvements, such as information
                   technology and use of contractors, facilitated these improvements, which
                   led to greater savings. At the same time, States reported continued
                   challenges with third parties when trying to identify insurance coverage
                   and recover payments similar to those identified by States in previous OIG
                   and GAO studies. In addition, States reported challenges—caused, they
                   say, by laws and regulations—that hinder the recovery of payments.




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                                               16
                   States reported that their use of electronic systems and
                   contractors facilitated improved savings
                   Forty-Five States Reported That Their Electronic Systems Facilitated
                   Improvements in Their Identification, Cost Avoidance, and Recovery
                   Efforts. States indicated that electronic systems improved the efficiency
                   with which they were able to identify beneficiaries with third-party
                   insurance. This improved efficiency resulted from: (1) conducting online
                   verification of coverage and (2) having electronic data-matching
                   agreements with third parties. Forty-two States reported that at least one of
                   these systems was “very useful” for identifying third parties. See Table 2
                   for a breakdown of the number of States that reported that each system was
                   very useful for identifying third parties.
                   Table 2: Electronic Systems That States Reported as Very Useful for
                   Identifying Third Parties
                                                                                         Reported as   Percentage of
                    Electronic System
                                                                                         Very Useful          States

                    Online verification                                                          37             73%

                        Via third-party Web site                                                 36             71%

                        Via TPL clearinghouse vendor                                             20             39%

                    Having electronic data matching agreements with
                                                                                                 34             68%
                    third parties

                   Source: OIG analysis of State data collection instrument responses, 2012.

                   Electronic systems helped States identify third parties more efficiently,
                   which helped States save money. For instance, verifying coverage online
                   through a third-party Web site is quicker than phoning or faxing a third
                   party. In addition, States reported that using TPL clearinghouses—vendors
                   with electronic agreements with many insurance companies—was helpful.
                   States pay clearinghouses to match coverage information for beneficiaries
                   against a clearinghouse’s collection of data. Lastly, data-matching
                   agreements increase efficiency because they allow States to check for
                   third-party insurance for many beneficiaries at one time. In these cases,
                   States share their Medicaid enrollment with third parties, which then
                   compare States’ lists to their covered individuals and produce a report of all
                   matches for States.
                   Similarly, using electronic systems increased States’ efficiency in avoiding
                   costs and recovering payments. Thirty-six States reported that increases in
                   electronic claims or electronic billing significantly improved their ability to
                   save money. Electronic claims occur when providers submit claims
                   electronically for services provided to Medicaid beneficiaries to States for
                   payment. Electronic billing occurs when States send their invoices for
                   reimbursement to third parties via electronic means. Both of these systems


Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                              17
                   may help States save money because automated processes replace manual
                   processes. For example, because electronic claims from providers are
                   transmitted directly to States’ claim management processing systems, claim
                   reviews, TPL checks, and cost-avoidance activities happen automatically,
                   rather than manually.
                   In addition, States’ ability to receive payments electronically from third
                   parties appears to have had some positive effect on savings. As of
                   December 2011, 32 States reported accepting electronic payments. These
                   States demonstrated a 78-percent increase in recoveries between 2001 and
                   2011. On the other hand, the 18 States that did not accept electronic
                   payments had an 18-percent increase in recoveries over the same period.
                   States Reported That Assistance From Contractors Facilitated
                   Improvements in Their Identification and Recovery Efforts. Forty-seven
                   States used a contractor for at least one TPL activity, and all but two of
                   these States indicated that contractor assistance was either useful for
                   identifying third parties or improved States’ ability to collect pay-and-chase
                   claims.
                   States reported that the most helpful functions contractors provide are
                   identification and verification. Overall, 29 States that have contractors
                   indicated that such assistance was very useful in identifying third-party
                   insurance. States indicated that contractors’ data-matching agreements
                   with out-of-state third parties helped them identify third-party insurance.
                   Because contractors were more likely to have relationships with a wider
                   array of third parties, they could more easily develop data-matching
                   agreements than States could.
                   States reported that the second-most helpful contractor-assisted function
                   was conducting collections. Overall, 27 States that used contractors
                   indicated that such collection assistance with pay-and-chase claims from
                   third parties significantly improved States’ ability to recover money. For
                   example, some States indicated that contractors may be useful in doing
                   followup work on claims that are hard to recover.
                   States reported longstanding challenges with third parties
                   when trying to identify insurance coverage and recover
                   payments
                   Although States’ TPL savings improved, they continue to face challenges in
                   maximizing savings from third parties. States reported challenges in
                   identifying third parties and recovering payments through pay and chase.
                   In fact, 49 States identified at least one part of these activities as “very
                   challenging.” However, data are inconclusive as to whether States that
                   identified more challenges than others have less in TPL savings.


Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)        18
                   In passing the DRA, Congress attempted to mitigate challenges in
                   identifying third parties and recovering payments. 37 However, we found
                   that many of the challenges that States reported are similar to those
                   reported in 2001 and 2006. 38, 39
                   States Continue To Face Challenges Identifying Beneficiaries With
                   Third-Party Insurance Because Third Parties Do Not Always Provide
                   Complete Coverage Information. All States reported that identifying third
                   parties was challenging. Identification of third-party insurance is the first,
                   and key, step in saving money through TPL. Without the appropriate
                   information, States cannot avoid costs or recover payments.
                   Although the details may have changed for certain challenges,
                   identification has historically been challenging for States. In 2001, States
                   reported concerns about inaccurate or incomplete information in coverage
                   files and difficulty identifying claims processing entities. 40 In 2006, States
                   noted problems with third parties’ ignoring their requests for coverage
                   information and being unwilling to share data electronically. 41 In 2011,
                   States reported challenges with third parties’ submitting explanation of
                   benefit (EOB) forms that were confusing or incomplete. See Table 3 for a
                   complete list of challenges related to identification of third parties that
                   States identified in 2011. 42
                   Table 3: Challenges That States Reported Related to Identification
                                                                                                   Percentage of States That
                    Specific Challenge With Identification
                                                                                               Reported the Challenge in 2011
                    Third-party concerns about HIPAA and releasing insurance
                                                                                                                        90%
                    coverage information to States
                    EOB forms from third parties that are confusing or
                                                                                                                        86%
                    incomplete

                    Cooperation from pharmacy benefit managers                                                          84%

                    Obtaining data about beneficiaries’ third-party insurance
                                                                                                                        78%
                    from State or Federal entities
                    Obtaining data from TRICARE on Medicaid beneficiaries
                                                                                                                        74%
                    with potential TRICARE coverage

                   Source: OIG analysis of State data collection instrument responses, 2012.

                   The most frequently cited challenge to identification was third-party
                   concern about HIPAA and whether third parties can release information to

                   37
                      DRA, P.L. 109-171 § 6035, Social Security Act § 1902(a)(25), 42 U.S.C. § 1396a.
                   38
                      OIG, Medicaid Recovery of Pharmacy Payments From Liable Third Parties.
                   39
                      GAO, Medicaid Third-Party Liability: Federal Guidance Needed to Help States
                   Address Continuing Problems.
                   40
                      OIG, Medicaid Recovery of Pharmacy Payments From Liable Third Parties.
                   41
                      GAO, Medicaid Third-Party Liability: Federal Guidance Needed to Help States
                   Address Continuing Problems.
                   42
                      See Table A-1 in Appendix A for a list of these challenges by State.

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                                   19
                   States. States are exempt from HIPAA under the privacy rule’s exception
                   for the use and disclosure of protected health information for treatment,
                   payment, and health care operations. 43 CMS has also issued guidance on
                   this issue. 44 However, States indicated that third parties continue to use
                   HIPAA as an excuse to not provide information. For example, one State
                   reported:
                             Many commercial carriers frequently quote HIPAA and then refuse
                             to verify coverage when our State agency contacts them. We
                             frequently must go through their compliance office in an attempt to
                             get clearance. Once we obtain clearance it does not always help us
                             the next time we need to verify coverage. Carriers feel it is a
                             violation of HIPAA to confirm the existence of coverage and the
                             lives covered.
                   The next most frequently cited challenge to identification was that EOB
                   forms States receive from third parties are either difficult to interpret or
                   incomplete. Inaccurate and incomplete information on EOB forms hinders
                   States’ attempts to determine whether they correctly identified the liable
                   third party. When a third party refuses liability, it denies the claim via an
                   EOB form. The EOB form should indicate the reason for denying a claim
                   (i.e., that the third party refuses its coverage liability). However, there is
                   no standard format for the EOB form. States indicated that, even across
                   national plans, EOB forms are inconsistent and that data may not be easily
                   identifiable or be in the same spot on the form. This is problematic for
                   States because “it can be very difficult … to understand them and key it
                   correctly.” In addition, States reported that third parties did not always
                   submit all information on the EOB form denying States’ requests for
                   payment. One State provided this example: “There are some companies
                   that do not provide a complete EOB the first time around. Claims are
                   corrected and resubmitted based on the first EOB, only to receive a second
                   EOB with new items that need to be resolved.”
                   Another challenge that States reported was lack of cooperation from
                   pharmacy benefit managers. States have reported this challenge since
                   2001. In fact, in 2001, OIG found that more States had problems with
                   pharmacy benefit managers than with all other third parties combined. 45
                   The DRA attempted to increase cooperation from pharmacy benefit
                   managers by clarifying that they are third parties, and as such must accept


                   43
                      45 CFR § 164.506.
                   44
                      CMS, State Medicaid Director Letter, June 21, 2010 (SMDL #10-011), Questions and
                   Answers. Accessed at http://downloads.cms.gov/cmsgov/archived-
                   downloads/SMDL/downloads/SMD10011.pdf on August 29, 2012.
                   45
                      OIG, Medicaid Recovery of Pharmacy Payments From Liable Third Parties.

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                20
                   States’ right of recovery. CMS has also issued guidance to this effect. 46 Yet
                   in 2011, States again reported that pharmacy benefit managers were
                   uncooperative. One State provided this example: “They make you guess a
                   date [of coverage eligibility] and then will tell you yes or no.” States
                   indicated that pharmacy benefit managers will not provide eligibility dates
                   for covered beneficiaries, will not verify coverage unless a State has the
                   policy number, and may be unwilling to speak to States’ representatives.
                   Finally, States reported challenges obtaining data about third-party
                   coverage from State and Federal entities. Some States cited problems
                   getting workers’ compensation or child support claims needed to identify
                   additional sources of third-party insurance. States also reported that some
                   entities cite Internal Revenue Service or Social Security Administration
                   security requirements that prevent them from disclosing Social Security
                   numbers and other personal identifiers required for data matching. In
                   addition, States reported that TRICARE is challenging, mostly because it
                   will conduct only one data match per year with each State.
                   States Continue To Face Challenges Recovering Payments Because Third
                   Parties Refuse To Process or Pay Claims. All but one State reported
                   continuing challenges with third parties refusing to process or pay claims,
                   despite State laws requiring third-party cooperation that were enacted
                   pursuant to the DRA. Generally, States have reported these challenges
                   since 2001. In 2001, States reported that claims were not processed or
                   were returned with vague denial codes, and that some pharmacy benefit
                   managers would not process claims because their clients had not authorized
                   them to do so. 47 In 2006, States reported that third parties refused to
                   respond to or cooperate on claims filed for payment by States. 48 In 2011,
                   States reported similar challenges, such as third parties’ issuing denials for
                   procedural reasons. See Table 4 for a complete list of the challenges
                   related to third-party refusal to pay or process claims, whether States
                   reported the challenges in the past, and whether the DRA sought to address
                   them. 49




                   46
                      CMS, State Medicaid Director Letter, December 15, 2006 (SMD #06-026), Questions
                   and Answers. Accessed at http://downloads.cms.gov/cmsgov/archived-
                   downloads/SMDL/downloads/SMD121506QandA.pdf on August 29, 2012.
                   47
                      OIG, Medicaid Recovery of Pharmacy Payments From Liable Third Parties.
                   48
                      GAO, Medicaid Third-Party Liability: Federal Guidance Needed to Help States
                   Address Continuing Problems.
                   49
                      See Table A-2 in Appendix A for a list of these challenges by State.

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)               21
Table 4: Challenges States Reported About Third-Party Refusal To Process or Pay Claims
                                       Identified in        Identified in           DRA     Identified in       Percentage of States
 Challenge                                2001 OIG            2006 GAO      Attempted To      2011 (This    That Reported Challenge
                                            Report               Report          Address         Study)                      in 2011

 Denial by third parties                    X                                                  X                               98%

   For procedural reasons                   X                    X              X              X                               96%

   No explanation                           X                                                  X                               88%

 Third parties not responding
                                            X                    X              X              X                               92%
 when State submits bills
 Third parties not abiding by
                                                                                               X                               88%
 3-year timely filing rules

 Third-party documentation
 submitted with
 reimbursement does not                                                                        X                               88%
 indicate which claims are
 being reimbursed

 Third parties not accepting
                                            X                   X               X              X                               82%
 States' right to collect
 Pharmacy benefit managers
 claim they do not have the
                                            X                    X              X              X                               82%
 authority to reimburse
 States directly
Source: OIG analysis of State data collection instrument responses, 2012.

                      The most frequently cited longstanding challenge to recovering payments is denial
                      from third parties for procedural reasons or with no explanation. In 2011,
                      42 States reported that $3.4 billion of the $7 billion that they billed to third-party
                      health insurance was denied. Although third parties may legitimately deny claims
                      (e.g., if the insurer did not cover the Medicaid beneficiary), denials for procedural
                      reasons or with no explanation are not considered legitimate. In fact, the DRA
                      specifically required States to pass laws prohibiting third parties from refusing to
                      reimburse States for procedural reasons. It is unclear what portion of the
                      $3.4 billion in denied claims was inappropriately denied by third parties and still
                      eligible for collection. However, some portion of that money may contribute to the
                      amount that States reported as at risk.
                      An additional longstanding reported challenge is third parties’ failing to
                      respond to States’ claims. For instance, in 2011, 41 States reported that
                      third parties did not respond to $2 billion of the $7 billion billed to
                      third-party health insurance. When this happens, States may lose money.
                      Another challenge that States have reported since 2001 is that third parties
                      do not accept States’ right to collect reimbursements. One State indicated
                      that this was a particular problem with out-of-State third-party insurers.
                      Another State indicated that there still appeared to be some confusion about
                      Medicaid being the payer of last resort.
                      A final challenge States have reported since 2001 is that pharmacy benefit
                      managers claim they do not have the authority to reimburse States directly.

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                             22
                   Despite State laws requiring third-party cooperation that were enacted
                   pursuant to the DRA, in 2011, half of States reported this issue as “very
                   challenging.” Several States reported that pharmacy benefit managers
                   claim they can reimburse States only when beneficiaries’ employers have
                   authorized them to do so. In refusing to reimburse States, pharmacy
                   benefit managers have contended that the Employee Retirement Income
                   Security Act of 1974 (ERISA) prevents reimbursement to States by
                   pharmacy benefit managers for employer-governed health benefit plans. 50
                   Pharmacy benefit managers have also argued that they must refuse
                   reimbursement to States according to procedural restrictions chosen by plan
                   sponsors. 51 These arguments have proved unsuccessful for pharmacy
                   benefit managers in recent litigation. 52
                   States reported that certain laws and regulations created
                   challenges to recovering payments
                   In addition to longstanding challenges from third parties, all States reported
                   that particular laws and regulations, or the lack thereof, are challenging to
                   recovery efforts. Specifically, the Medicare and TRICARE 1-year timely
                   filing limits were most frequently reported to be “very challenging.” See
                   Table 5 for a list of specific challenges related to current laws and
                   regulations. 53
                   Table 5: Challenges That States Reported With Current Laws and
                   Regulations
                                                                                           Percentage of States That
                    Challenge
                                                                                          Reported Challenge in 2011

                    Medicare 1-year timely filing limit                                                         98%

                    TRICARE 1-year timely filing limit                                                          92%

                    Lack of enforceable penalties for third parties that
                                                                                                                90%
                    refuse to reimburse States

                    Inability to bill Medicare directly                                                        88%

                    Lack of rules requiring third parties to reimburse in a
                                                                                                                82%
                    timely manner

                   Source: OIG analysis of State data collection instrument responses, 2012.

                   Medicare Timely Filing Limit Is Challenging. States reported that the
                   Medicare 1-year timely filing limit creates barriers to recovery. Because
                   States cannot bill Medicare directly, they must decide whether and how to
                   recover money from providers. Some States direct providers to first bill
                   Medicare and then forward payment to States once it is received. If States

                   50
                      See, e.g., Caremark, Inc. v. Goetz, 480 F.3d 779 (6th Cir. 2007).
                   51
                      Ibid.
                   52
                      Ibid.
                   53
                      See Table A-3 in Appendix A for a list of these challenges by State.

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                              23
                   do not discover the third-party insurance in time for providers to meet the
                   1-year timely filing deadline, States lose that money. Some States may not
                   attempt to recover Medicare claims because it is not cost effective.
                   States may remedy the problem by recovering money from providers,
                   regardless of whether providers are paid by Medicare. In this case, States
                   recover their payments, but providers may not complete their recovery
                   from Medicare in time to get paid. However, States expressed concern
                   about the consequences of taking money back from providers when they do
                   not expect the providers to recover the money from Medicare. Multiple
                   States indicated that providers may choose not to participate in Medicaid
                   because of this challenge and are concerned that this may limit beneficiary
                   access. Some States are so concerned that they do not attempt to recover
                   money from providers for Medicare claims.
                   Medicare regulations allow providers an exception to the 1-year timely
                   filing limit, but States expressed concern that the exception is of limited use
                   to providers in getting their money back. 54 If CMS, or one of its
                   contractors, determines that beneficiaries were retroactively awarded
                   Medicare coverage and States have recovered their money from providers,
                   providers will be granted additional time to file claims with Medicare.
                   However, States reported that the requirements for meeting the conditions
                   for exception to the timely filing limit are challenging. At the time of our
                   data collection, providers had to produce the letter notifying the beneficiary
                   of retroactive Medicare entitlement to qualify for the exception. States
                   reported that providers often do not have, and cannot get, this letter. CMS
                   changed this requirement after we completed our data collection. As of
                   August 27, 2012, if providers do not have access to this letter, Medicare
                   contractors can use Medicare databases to verify retroactive eligibility. 55
                   TRICARE’s 1-Year Timely Filing Limit Is Challenging. States reported that
                   TRICARE’s 1-year timely filing limit is also challenging, primarily
                   because TRICARE allows each State one data match per year. States may
                   find claims that were already paid and potentially should have been paid by
                   TRICARE, but are for dates of service more than 1 year previous and are
                   past the 1-year window.



                   54
                     42 CFR 424.44(b)(2).
                   55
                     CMS, Modifying Timely Filing Exceptions on Retroactive Medicare Entitlement and
                   Retroactive Medicare Entitlement Involving State Medicaid Agencies, Medicare Claims
                   Processing Manual (CMS Pub. 100-04), Transmittal 2477, Change Request 7834
                   (May 25, 2012; effective August 27, 2012). Accessed at
                   http://www.cms.gov/Regulations-and-
                   Guidance/Guidance/Transmittals/downloads/R2477CP.pdf on August 29, 2012.



Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                24
                   The high percentage of States reporting that TRICARE’s 1-year timely
                   filing limit is challenging may be due to lack of clarity about TRICARE’s
                   policy. Specifically, States may have a different interpretation of the start
                   date of the 1-year window, depending on which source of TRICARE
                   guidance they consult. TRICARE regulations indicate that States have
                   1 year from the date of service to file a claim. 56 The TRICARE
                   Reimbursement Manual extends that window by allowing States 1 year
                   from the date of the annual data match. According to the TRICARE
                   Reimbursement Manual, States may file claims no later than 1 year after
                   the: (1) date of service, (2) date the prescription was filled, (3) date of
                   discharge if the services were rendered during an inpatient admission, or
                   (4) the date a State received the results of the annual data match. 57
                   However, the sample billing agreement that States sign to claim
                   reimbursement from TRICARE does not mention the four options and
                   indicates only that claims must be filed “no later than one year following
                   the date of service or the date of discharge for inpatient services.” 58
                   Although the billing agreement indicates that TRICARE contractors can
                   grant waivers to the claims filing deadline, the requirements for obtaining a
                   waiver are not listed.
                   Some States and CMS staff have indicated that they were not aware of
                   alternatives to using the date of service for the start of the 1-year timely
                   filing deadline.
                   States Lack an Enforcement Mechanism for Uncooperative Third Parties.
                   States indicated that the lack of penalties for refusal to reimburse and lack
                   of rules for timely reimbursement were challenges to achieving TPL
                   savings. Without a mechanism to enforce penalties, States have no
                   influence over third parties and few resources to compel payment.
                   Although States’ Attorneys General may seek legal action against third
                   parties, States indicated that these efforts are resource intensive and the
                   outcomes are uncertain and may not be cost effective. In addition, there are
                   no rules for how long third parties have to reimburse States once States
                   have submitted a bill. Lacking rules requiring third parties to reimburse
                   States in a timely manner, States bill third parties multiple times and have
                   outstanding balances in their fiscal systems for indefinite periods.




                   56
                      32 CFR § 199.7(d).
                   57
                      TRICARE, TRICARE Reimbursement Manual 6010.58-M, ch. 1, § 20, para. 2.1.2
                   (Feb. 1, 2008).
                   58
                      TRICARE, TRICARE Reimbursement Manual 6010.58-M, ch. 1, add. A (Feb. 1, 2008).

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)          25
                   CONCLUSION AND RECOMMENDATIONS
                   Since 2001, States have made sizable gains in TPL savings. Improvements
                   in States’ processes and changes enacted by the DRA appear to have had a
                   positive effect. However, States reported that $4 billion remains at risk of
                   not being recovered, so further efforts to improve TPL savings are
                   warranted.
                   Longstanding challenges persist in recovering payments from third parties.
                   In particular, States reported challenges in getting third parties to provide
                   complete insurance coverage information and to process or pay claims.
                   States have been reporting these challenges since 2001. States also
                   indicated that challenges involving current laws and regulations limited
                   their ability to recover payments.
                   Based on the amount of money at risk of not being recovered and the
                   longstanding challenges that States continue to face, we make
                   three recommendations to CMS to strengthen Medicaid TPL outcomes.
                   CMS should:
                   Work With States To Address Longstanding Challenges
                   Working With Third Parties To Identify Insurance Coverage and
                   Recover Payments
                   CMS should work with States, and potentially with third parties, to address
                   challenges related to identification and recovery of payments. Because
                   States face similar TPL challenges, CMS could help coordinate their
                   efforts. In addition, many of the third parties have coverage across the
                   country, so a broad plan, rather than individual State negotiations, would be
                   appropriate.
                   At a minimum, CMS should address the challenges with identifying third
                   parties and recovering payments that were identified in this report. This
                   could include collecting and disseminating examples of State best practices
                   for working with third parties or methods to educate third parties on
                   particular topics (e.g., HIPAA, obligation to respond to States, or not
                   denying claims with no explanation).
                   CMS could also explore ways to take an active role in facilitating States’
                   coordination of benefits activities. This could include (1) acting as a
                   liaison for data-sharing agreements, (2) coordinating with TRICARE, and
                   (3) working with States to determine whether CMS has a role to play in
                   working with third parties that are consistently uncooperative across a
                   number of States.
                   CMS’s actions to address State challenges should pay particular attention to
                   pharmacy benefit managers. Since OIG’s 2001 study, States have

Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)       26
                   consistently reported that pharmacy benefit managers are uncooperative.
                   CMS could facilitate efforts to better understand and mitigate pharmacy
                   benefit managers’ concerns.
                   CMS could use the TPL Technical Assistance Group (TAG) to develop
                   solutions to address States’ challenges. Or, it could create a task force that
                   includes States and third parties, including key pharmacy benefit managers,
                   to work toward feasible solutions.
                   Address States’ Challenges With 1-Year Timely Filing Limits for
                   Medicare and TRICARE
                   Medicare’s and TRICARE’s filing limits were the two items that had the
                   most “very challenging” responses from States. States may be unable to
                   bill for and recover claims within the 1-year limit, resulting in losses for the
                   States.
                   To address the Medicare concerns, CMS should ensure that States and
                   providers are aware of and understand the August 2012 change to the
                   policy for requesting an exception to the 1-year timely filing limit for
                   retroactive Medicare eligibility. CMS could issue a State Medicaid
                   Director Letter explaining this change.
                   To address the TRICARE concerns, CMS could engage in conversations
                   with TRICARE to clarify the policies for the 1-year timely filing limit.
                   CMS could clarify the start date of the timely filing limit. CMS could also
                   ask TRICARE to clarify how its claims processing contractors apply the
                   TRICARE Reimbursement Manual’s start date policies when reviewing
                   claims submitted by State Medicaid agencies. They could also discuss the
                   procedures and circumstances, if any, under which States should request
                   waivers. CMS and TRICARE could also discuss whether any changes
                   should be made to the State Agency Billing Agreement to further
                   incorporate the Reimbursement Manual guidelines. CMS could then issue
                   guidance to States on TRICARE policies and procedures.
                   Work To Strengthen Enforcement Mechanisms Designed To
                   Deal With Uncooperative Third Parties
                   The DRA enacted solutions for many of the challenges that OIG and GAO
                   found related to working with third parties to identify insurance coverage
                   and recover payments, but States reported that working with third parties
                   remains challenging. The law does not include any enforcement authority
                   to penalize third parties for violations. Enforcement mechanisms would
                   allow States and the Federal Government to send a strong message that
                   third parties must comply with the law, and ultimately help States and the
                   Federal Government recover some of the $4 billion that States report as
                   being at risk.


Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)        27
                   Enforcement could take many forms. For example, penalties could be
                   assessed if third parties are uncooperative when States attempt to identify
                   or verify coverage. On the recovery end, enforcement could include
                   interest, or a fine, for claims that are not responded to in a given period.
                   Because different organizations govern different aspects of health
                   insurance, CMS should work with the appropriate Federal and State entities
                   to determine whether these suggestions are feasible enforcement options or
                   whether others exist. For example, to explore possibilities for enforcement
                   related to employer-sponsored health plans subject to ERISA, CMS could
                   work with the Department of Labor. The appropriate divisions within CMS
                   could explore enforcement options for pharmacy benefit managers that
                   contract to provide Medicare services. CMS should also work with States
                   to explore options to strengthen State enforcement mechanisms under State
                   laws and regulations governing insurance. Finally, CMS could consider
                   whether additional congressional action would be helpful.

                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with our recommendations. For the first recommendation,
                   CMS stated that it will work with States and third parties to address the
                   problems with identifying insurance coverage and recovering payments
                   that are identified in this report. CMS will consult with its TPL TAG to
                   identify what guidance is needed from CMS and will work with States to
                   identify best practices. For the second recommendation, CMS indicated
                   that it would inform States and Medicare providers about the recent change
                   in Medicare’s requirements for an exception to the Medicare 1-year timely
                   filing limit. CMS also stated that it would talk with the Department of
                   Defense and States to understand and to clarify policies for the TRICARE
                   1-year timely filing limit. For the third recommendation, CMS indicated
                   that it would work with States to explore options to strengthen enforcement
                   mechanisms under State laws. CMS also stated that it would review its
                   own existing enforcement authorities. OIG encourages CMS to think
                   broadly about this third recommendation, as we believe that CMS can play
                   a role in facilitating the conversation about additional enforcement
                   authority.
                   CMS noted that OIG did not adjust States’ estimates of dollars at risk for
                   Medicare or health insurance and therefore the overall dollars at risk may
                   be less than reported. CMS asserted that States usually submit claims to
                   health insurance carriers for more than the amount that the carrier is legally
                   liable to pay. OIG acknowledges that actual health insurance liability may
                   reduce the dollars at risk that States are legally entitled to recover from


Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)         28
                   health insurers. However, no reliable estimate of how often States bill
                   above the health insurers’ liability cap or the rate of liability reduction is
                   available. Further, OIG does not think it is instructive to look to the
                   average rate of return of 18 percent on health insurance as a proxy measure
                   for reduced liability. The average rate of return reflects reduced liability
                   along with a variety of other factors, chiefly the challenges identified in this
                   report, including payment denials for procedural reasons and nonresponsive
                   third parties.
                   We did not make any changes to the report based on CMS’s comments.
                   For the full text of CMS’s comments, see Appendix B.




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)        29
                   APPENDIX A
                   Challenges by State
Table A-1: Challenges That States Reported to Identification and Verification, by State

                 Third-party concerns about
                        the Health Insurance                                                                       Obtaining data from State or
                                                                                                                                                            Obtaining data from
                              Portability and        Confusing or incomplete                                          Federal entities that may
                                                                                   Cooperation from pharmacy                                             TRICARE on Medicaid
                  Accountability Act of 1996      Explanation of Benefit forms                                                 have data about
                                                                                             benefit managers                                        beneficiaries with potential
                    and releasing insurance                 from third parties                                        beneficiaries' third-party
                                                                                                                                                             TRICARE coverage
                    coverage information to                                                                                           insurance
                                       States
                    Challenging




                                    Challenging




                                                     Challenging




                                                                     Challenging




                                                                                      Challenging




                                                                                                     Challenging




                                                                                                                       Challenging




                                                                                                                                       Challenging




                                                                                                                                                       Challenging




                                                                                                                                                                          Challenging
                                     Somewhat




                                                                      Somewhat




                                                                                                      Somewhat




                                                                                                                                        Somewhat




                                                                                                                                                                           Somewhat
                       Very




                                                        Very




                                                                                         Very




                                                                                                                          Very




                                                                                                                                                          Very
State




Alabama                                X                                X                               X                 X                                                  X
Alaska                                 X                                                                X
Arizona                                X                                                                X                 X                               X
Arkansas                               X                                X                               X                                 X                                  X
California                                                                               X
Colorado                               X                                X                               X                 X                                                  X
Connecticut                            X                                X                                                                 X
Delaware                               X                                X                               X                                                 X
District of
Columbia                                                                                                                                                                     X
Florida                                X                                                                X                 X                                                  X
                                                                                                                                                             continued on next page




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                                            30
Table A-1: Challenges That States Reported to Identification and Verification, by State (Continued)

                   Third-party concerns about
                          the Health Insurance                                                                       Obtaining data from State or
                                                                                                                                                                 Obtaining data from
                                Portability and        Confusing or incomplete                                          Federal entities that may
                                                                                     Cooperation from pharmacy                                                TRICARE on Medicaid
                    Accountability Act of 1996      Explanation of Benefit forms                                                 have data about
                                                                                               benefit managers                                           beneficiaries with potential
                      and releasing insurance                 from third parties                                        beneficiaries' third-party
                                                                                                                                                                  TRICARE coverage
                      coverage information to                                                                                           insurance
                                         States
                     Challenging




                                      Challenging




                                                       Challenging




                                                                       Challenging




                                                                                        Challenging




                                                                                                       Challenging




                                                                                                                         Challenging




                                                                                                                                            Challenging




                                                                                                                                                            Challenging




                                                                                                                                                                               Challenging
                                       Somewhat




                                                                        Somewhat




                                                                                                        Somewhat




                                                                                                                                             Somewhat




                                                                                                                                                                                Somewhat
                        Very




                                                          Very




                                                                                           Very




                                                                                                                            Very




                                                                                                                                                               Very
 State




 Georgia                                 X                               X                               X                                    X                                  X
 Hawaii                                  X                               X                               X                                    X                                  X
 Idaho                                   X                               X                               X                 X                                                     X
 Illinois                                X                               X                               X
 Indiana                                                                  X                                                X                                                     X
 Iowa                                                                     X                               X                 X
 Kansas                 X                                                 X                               X                                   X                                  X
 Kentucky                                X                               X                               X                 X                                                     X
 Louisiana                               X                X                                                                 X                                                    X
 Maine                                   X                               X                               X                                    X                                  X
 Maryland                                X                X                                                                                                                      X
 Massachusetts                           X                X                                               X                                    X                                 X
 Michigan               X                                 X                                X                                X                                                    X
                                                                                                                                                                  continued on next page




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                                              31
Table A-1: Challenges That States Reported to Identification and Verification, by State (Continued)

                   Third-party concerns about
                          the Health Insurance                                                                       Obtaining data from State or
                                                                                                                                                                 Obtaining data from
                                Portability and        Confusing or incomplete                                          Federal entities that may
                                                                                     Cooperation from pharmacy                                                TRICARE on Medicaid
                    Accountability Act of 1996      Explanation of Benefit forms                                                 have data about
                                                                                               benefit managers                                           beneficiaries with potential
                      and releasing insurance                 from third parties                                        beneficiaries' third-party
                                                                                                                                                                  TRICARE coverage
                      coverage information to                                                                                           insurance
                                         States
                     Challenging




                                      Challenging




                                                       Challenging




                                                                       Challenging




                                                                                        Challenging




                                                                                                       Challenging




                                                                                                                         Challenging




                                                                                                                                            Challenging




                                                                                                                                                            Challenging




                                                                                                                                                                               Challenging
                                       Somewhat




                                                                        Somewhat




                                                                                                        Somewhat




                                                                                                                                             Somewhat




                                                                                                                                                                                Somewhat
                        Very




                                                          Very




                                                                                           Very




                                                                                                                            Very




                                                                                                                                                               Very
 State




 Minnesota              X                                                X                 X                                                  X
 Mississippi                             X                               X                                X                                    X                                 X
 Missouri                                X                X                                               X                                    X                                 X
 Montana                                 X                X                                               X                                                                      X
 Nebraska                                X                               X                               X                                    X                                  X
 Nevada                                  X                               X                               X                 X                                                     X
 New
 Hampshire                               X                X                                               X
 New Jersey                              X                               X                               X                 X                                                     X
 New Mexico                              X                                                                X                                                                      X
 New York                                X                               X                               X                 X                                                     X
 North Carolina                          X                               X                               X                 X                                                     X
 North Dakota                            X                               X                               X                 X                                  X
                                                                                                                                                                  continued on next page




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                                              32
Table A-1: Challenges That States Reported to Identification and Verification, by State (Continued)

                   Third-party concerns about
                          the Health Insurance                                                                       Obtaining data from State or
                                                                                                                                                                 Obtaining data from
                                Portability and        Confusing or incomplete                                          Federal entities that may
                                                                                     Cooperation from pharmacy                                                TRICARE on Medicaid
                    Accountability Act of 1996      Explanation of Benefit forms                                                 have data about
                                                                                               benefit managers                                           beneficiaries with potential
                      and releasing insurance                 from third parties                                        beneficiaries' third-party
                                                                                                                                                                  TRICARE coverage
                      coverage information to                                                                                           insurance
                                         States
                     Challenging




                                      Challenging




                                                       Challenging




                                                                       Challenging




                                                                                        Challenging




                                                                                                       Challenging




                                                                                                                         Challenging




                                                                                                                                            Challenging




                                                                                                                                                            Challenging




                                                                                                                                                                               Challenging
                                       Somewhat




                                                                        Somewhat




                                                                                                        Somewhat




                                                                                                                                             Somewhat




                                                                                                                                                                                Somewhat
                        Very




                                                          Very




                                                                                           Very




                                                                                                                            Very




                                                                                                                                                               Very
 State




 Ohio                   X                                                 X
 Oklahoma               X                                                 X                X                                X                                 X
 Oregon                 X                                                 X                X                                                  X                                  X
 Pennsylvania           X                                 X                                                                                   X
 Rhode Island                            X                               X                                                                    X                                  X
 South Carolina                          X                                                X                                X
 South Dakota           X                                 X                                X                                X
 Tennessee                               X                               X                               X                 X
 Texas                  X                                                 X                               X                                   X               X
 Utah                                    X                               X                               X                                    X                                  X
 Vermont                                 X                               X                               X                                    X
 Virginia                                X                               X                               X                 X                                                     X
 Washington                              X                               X                X
                                                                                                                                                                  continued on next page




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                                              33
Table A-1: Challenges That States Reported to Identification and Verification, by State (Continued)

                      Third-party concerns about
                             the Health Insurance                                                                         Obtaining data from State or
                                                                                                                                                                      Obtaining data from
                                   Portability and         Confusing or incomplete                                           Federal entities that may
                                                                                          Cooperation from pharmacy                                                TRICARE on Medicaid
                       Accountability Act of 1996       Explanation of Benefit forms                                                  have data about
                                                                                                    benefit managers                                           beneficiaries with potential
                         and releasing insurance                  from third parties                                         beneficiaries' third-party
                                                                                                                                                                       TRICARE coverage
                         coverage information to                                                                                             insurance
                                            States
                         Challenging




                                          Challenging




                                                           Challenging




                                                                            Challenging




                                                                                             Challenging




                                                                                                            Challenging




                                                                                                                              Challenging




                                                                                                                                                 Challenging




                                                                                                                                                                 Challenging




                                                                                                                                                                                  Challenging
                                           Somewhat




                                                                             Somewhat




                                                                                                             Somewhat




                                                                                                                                                  Somewhat




                                                                                                                                                                                   Somewhat
                            Very




                                                              Very




                                                                                                Very




                                                                                                                                 Very




                                                                                                                                                                    Very
 State




 West Virginia              X                                                  X                               X                                   X                                X
 Wisconsin                                                    X                                                X                                    X                               X
 Wyoming                    X                                 X                                 X                                                  X                                X
 Source: Office of Inspector General (OIG) analysis of State data collection instrument responses, 2012.




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                                                   34
Table A-2: Challenges That States Reported With Third-Party Refusal To Process or Pay Claims, by State

                                                                                                                                                     Third-party
                                                                                                                                                 documentation                                           Pharmacy benefit
                     Denials from third                 Denials from third            Third parties not            Third parties not             submitted with             Third parties not         managers claim they
                 parties for procedural                   parties with no       responding when State             abiding by 3-year        reimbursement does          accepting States' right             do not have the
                                reasons                       explanation                 submits bills           timely filing rules         not indicate which                    to collect       authority to reimburse
                                                                                                                                               claims are being                                              States directly
                                                                                                                                                     reimbursed
                    Challenging




                                  Challenging




                                                Challenging




                                                                  Challenging




                                                                                 Challenging




                                                                                               Challenging




                                                                                                             Challenging




                                                                                                                             Challenging




                                                                                                                                           Challenging




                                                                                                                                                         Challenging




                                                                                                                                                                         Challenging




                                                                                                                                                                                       Challenging




                                                                                                                                                                                                        Challenging




                                                                                                                                                                                                                      Challenging
                                   Somewhat




                                                                   Somewhat




                                                                                                Somewhat




                                                                                                                              Somewhat




                                                                                                                                                          Somewhat




                                                                                                                                                                                        Somewhat




                                                                                                                                                                                                                       Somewhat
                       Very




                                                   Very




                                                                                    Very




                                                                                                                Very




                                                                                                                                              Very




                                                                                                                                                                            Very




                                                                                                                                                                                                           Very
 State




 Alabama              X                                             X              X                                           X              X                                          X                X
 Alaska                             X             X                                              X             X                              X                                          X
 Arizona                            X                               X                                                                                      X                                              X
 Arkansas                           X                               X                            X             X                                           X                             X                              X
 California                         X                               X                            X                             X                                                         X                              X
 Colorado                           X                               X                            X                             X                           X                             X                X
 Connecticut                        X                               X                            X                             X                           X                             X                              X
 Delaware                           X                               X                            X                             X                           X                             X                X
 District of
 Columbia                           X                               X                            X                             X                           X                                                            X
 Florida                            X                               X                            X                             X                           X                             X                X
 Georgia                            X                               X                            X                             X                           X                             X                              X
 Hawaii                             X                               X              X                                           X                           X                             X                              X
                                                                                                                                                                                                     continued on next page




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                                                          35
Table A-2: Challenges That States Reported With Third-Party Refusal To Process or Pay Claims, by State (Continued)

                                                                                                                                                       Third-party
                                                                                                                                                   documentation                                           Pharmacy benefit
                       Denials from third               Denials from third         Third parties not                 Third parties not             submitted with              Third parties not        managers claim they
                   parties for procedural                 parties with no         responding when                   abiding by 3-year        reimbursement does               accepting States'              do not have the
                                  reasons                     explanation        State submits bills                timely filing rules         not indicate which               right to collect      authority to reimburse
                                                                                                                                                 claims are being                                              States directly
                                                                                                                                                       reimbursed
                    Challenging




                                  Challenging




                                                Challenging




                                                                  Challenging




                                                                                Challenging




                                                                                              Challenging




                                                                                                            Challenging




                                                                                                                               Challenging




                                                                                                                                             Challenging




                                                                                                                                                           Challenging




                                                                                                                                                                         Challenging




                                                                                                                                                                                         Challenging




                                                                                                                                                                                                          Challenging




                                                                                                                                                                                                                        Challenging
                                   Somewhat




                                                                   Somewhat




                                                                                               Somewhat




                                                                                                                                Somewhat




                                                                                                                                                            Somewhat




                                                                                                                                                                                          Somewhat




                                                                                                                                                                                                                         Somewhat
                       Very




                                                   Very




                                                                                   Very




                                                                                                               Very




                                                                                                                                                Very




                                                                                                                                                                            Very




                                                                                                                                                                                                             Very
 State




 Idaho                              X                               X                           X                                X                           X                             X                X
 Illinois                           X                                                           X                                X                           X                                                            X
 Indiana                            X                               X                           X                                X                           X                                              X
 Iowa                               X                               X                           X                                X                           X                             X                X
 Kansas                             X                               X                           X                                X                           X                             X                X
 Kentucky                           X                               X                           X                                X                           X                             X                X
 Louisiana                          X                               X                           X                                X                           X                             X                              X
 Maine                              X                               X                           X                                X                           X                             X                X
 Maryland                                                                                                                                                    X
 Massachusetts                                                      X                           X                                X                                                         X                              X
 Michigan                          X                                X                           X                                X                           X                             X
 Minnesota                          X                               X                           X                                X                           X                             X                              X
                                                                                                                                                                                                       continued on next page




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                                                          36
Table A-2: Challenges That States Reported With Third-Party Refusal To Process or Pay Claims, by State (Continued)

                                                                                                                                                       Third-party
                                                                                                                                                   documentation                                           Pharmacy benefit
                       Denials from third               Denials from third         Third parties not                 Third parties not             submitted with              Third parties not        managers claim they
                   parties for procedural                 parties with no         responding when                   abiding by 3-year        reimbursement does               accepting States'              do not have the
                                  reasons                     explanation        State submits bills                timely filing rules         not indicate which               right to collect      authority to reimburse
                                                                                                                                                 claims are being                                              States directly
                                                                                                                                                       reimbursed
                    Challenging




                                  Challenging




                                                Challenging




                                                                  Challenging




                                                                                Challenging




                                                                                              Challenging




                                                                                                            Challenging




                                                                                                                               Challenging




                                                                                                                                             Challenging




                                                                                                                                                           Challenging




                                                                                                                                                                         Challenging




                                                                                                                                                                                         Challenging




                                                                                                                                                                                                          Challenging




                                                                                                                                                                                                                        Challenging
                                   Somewhat




                                                                   Somewhat




                                                                                               Somewhat




                                                                                                                                Somewhat




                                                                                                                                                            Somewhat




                                                                                                                                                                                          Somewhat




                                                                                                                                                                                                                         Somewhat
                       Very




                                                   Very




                                                                                   Very




                                                                                                               Very




                                                                                                                                                Very




                                                                                                                                                                            Very




                                                                                                                                                                                                             Very
 State




 Mississippi          X                           X                               X                           X                                X                           X                                X
 Missouri                           X                               X                           X                                X                           X                             X                X
 Montana                            X                               X             X                                              X                           X                             X
 Nebraska                           X                               X                           X                                              X                                           X
 Nevada                             X                               X                           X                                X                           X                             X                X
 New Hampshire        X                                                                         X                                X                           X                             X                X
 New Jersey                         X                               X                           X                                X                           X                             X                X
 New Mexico                         X                               X                                                            X                           X                                                            X
 New York                           X                               X                           X                                X                           X                             X                 X
 North Carolina                     X                               X                           X                                X                           X                             X                X
 North Dakota                       X                               X                           X                                X                           X                             X                              X
 Ohio                               X
 Oklahoma                           X                               X                           X                                X                           X                             X                              X
                                                                                                                                                                                                       continued on next page




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                                                          37
Table A-2: Challenges That States Reported With Third-Party Refusal To Process or Pay Claims, by State (Continued)

                                                                                                                                                       Third-party
                                                                                                                                                   documentation                                           Pharmacy benefit
                       Denials from third               Denials from third         Third parties not                 Third parties not             submitted with              Third parties not        managers claim they
                   parties for procedural                 parties with no         responding when                   abiding by 3-year        reimbursement does               accepting States'              do not have the
                                  reasons                     explanation        State submits bills                timely filing rules         not indicate which               right to collect      authority to reimburse
                                                                                                                                                 claims are being                                              States directly
                                                                                                                                                       reimbursed
                    Challenging




                                  Challenging




                                                Challenging




                                                                  Challenging




                                                                                Challenging




                                                                                              Challenging




                                                                                                            Challenging




                                                                                                                               Challenging




                                                                                                                                             Challenging




                                                                                                                                                           Challenging




                                                                                                                                                                         Challenging




                                                                                                                                                                                         Challenging




                                                                                                                                                                                                          Challenging




                                                                                                                                                                                                                        Challenging
                                   Somewhat




                                                                   Somewhat




                                                                                               Somewhat




                                                                                                                                Somewhat




                                                                                                                                                            Somewhat




                                                                                                                                                                                          Somewhat




                                                                                                                                                                                                                         Somewhat
                       Very




                                                   Very




                                                                                   Very




                                                                                                               Very




                                                                                                                                                Very




                                                                                                                                                                            Very




                                                                                                                                                                                                             Very
 State




 Oregon               X                           X                               X                           X                                X                           X                                              X
 Pennsylvania         X                                             X                           X             X                                                            X                                X
 Rhode Island                       X                               X                           X                                X                           X                             X                              X
 South Carolina                     X                               X             X                           X                                                            X                                X
 South Dakota                       X             X                               X                           X                                X                           X
 Tennessee                          X                               X                           X                                X                           X                             X                X
 Texas                              X                               X                           X             X                                              X                             X                X
 Utah                 X                                             X              X                                             X                           X                             X                X
 Vermont              X                                                                         X                                              X                                           X                              X
 Virginia                           X                               X                           X                                X                           X                             X                X
 Washington                         X                                                           X                                                            X
 West Virginia                      X                               X                           X                                X                           X                             X                X
 Wisconsin                          X                               X                           X                                X                                                         X
                                                                                                                                                                                                       continued on next page




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                                                          38
Table A-2: Challenges That States Reported With Third-Party Refusal To Process or Pay Claims, by State (Continued)

                                                                                                                                                           Third-party
                                                                                                                                                       documentation                                           Pharmacy benefit
                         Denials from third                 Denials from third         Third parties not                 Third parties not             submitted with              Third parties not        managers claim they
                     parties for procedural                   parties with no         responding when                   abiding by 3-year        reimbursement does               accepting States'              do not have the
                                    reasons                       explanation        State submits bills                timely filing rules         not indicate which               right to collect      authority to reimburse
                                                                                                                                                     claims are being                                              States directly
                                                                                                                                                           reimbursed
                       Challenging




                                     Challenging




                                                    Challenging




                                                                      Challenging




                                                                                    Challenging




                                                                                                  Challenging




                                                                                                                Challenging




                                                                                                                                   Challenging




                                                                                                                                                 Challenging




                                                                                                                                                               Challenging




                                                                                                                                                                             Challenging




                                                                                                                                                                                             Challenging




                                                                                                                                                                                                              Challenging




                                                                                                                                                                                                                            Challenging
                                      Somewhat




                                                                       Somewhat




                                                                                                   Somewhat




                                                                                                                                    Somewhat




                                                                                                                                                                Somewhat




                                                                                                                                                                                              Somewhat




                                                                                                                                                                                                                             Somewhat
                          Very




                                                       Very




                                                                                       Very




                                                                                                                   Very




                                                                                                                                                    Very




                                                                                                                                                                                Very




                                                                                                                                                                                                                 Very
 State




 Wyoming                               X              X                               X                           X                                X                           X                                X
 Source: OIG analysis of State data collection instrument responses, 2012.




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                                                              39
Table A-3: Challenges States Reported With Current Laws and Regulations, by State


                                                                                           Lack of enforceable
                                                                                                                                                     Lack of rules requiring third
                  Medicare 1-year timely filing     TRICARE 1-year timely filing     penalties for third parties      Inability to bill Medicare
                                                                                                                                                        parties to reimburse in a
                                          limit                            limit      that refuse to reimburse                           directly
                                                                                                                                                                   timely manner
                                                                                                         States
                      Challenging




                                      Challenging




                                                       Challenging




                                                                       Challenging




                                                                                     Challenging




                                                                                                      Challenging




                                                                                                                    Challenging




                                                                                                                                       Challenging




                                                                                                                                                        Challenging




                                                                                                                                                                            Challenging
                                       Somewhat




                                                                        Somewhat




                                                                                                       Somewhat




                                                                                                                                        Somewhat




                                                                                                                                                                             Somewhat
                         Very




                                                          Very




                                                                                        Very




                                                                                                                       Very




                                                                                                                                                           Very
 State




 Alabama                 X                                X                                              X                               X                                    X
 Alaska                  X                                                X             X                              X                                                       X
 Arizona                 X                                X                                              X                               X                                     X
 Arkansas                                X                                X             X                                                 X                                    X
 California              X                                X                             X                              X
 Colorado                X                                X                             X                                                X                                     X
 Connecticut             X                                                X                              X             X                                                       X
 Delaware                X                                X                                              X             X                                                       X
 District of
 Columbia                                X                                X                              X                                X                                    X
 Florida                 X                                X                                              X             X                                                       X
 Georgia                                 X                                X                              X             X                                                       X
 Hawaii                                  X                                X             X                                                 X                                    X
 Idaho                   X                                X                                              X                               X                                     X
                                                                                                                                                               continued on next page




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                                         40
Table A-3: Challenges States Reported With Current Laws and Regulations, by State (Continued)


                                                                                           Lack of enforceable
                                                                                                                                                     Lack of rules requiring third
                  Medicare 1-year timely filing     TRICARE 1-year timely filing     penalties for third parties      Inability to bill Medicare
                                                                                                                                                        parties to reimburse in a
                                          limit                            limit      that refuse to reimburse                           directly
                                                                                                                                                                   timely manner
                                                                                                         States
                      Challenging




                                      Challenging




                                                       Challenging




                                                                       Challenging




                                                                                     Challenging




                                                                                                      Challenging




                                                                                                                    Challenging




                                                                                                                                       Challenging




                                                                                                                                                        Challenging




                                                                                                                                                                            Challenging
                                       Somewhat




                                                                        Somewhat




                                                                                                       Somewhat




                                                                                                                                        Somewhat




                                                                                                                                                                             Somewhat
                         Very




                                                          Very




                                                                                        Very




                                                                                                                       Very




                                                                                                                                                           Very
 State




 Illinois                X                                                X                                                              X                                    X
 Indiana                 X                                X                                              X             X                                                       X
 Iowa                    X                                X                                              X                               X                                     X
 Kansas                  X                                X                                              X                               X                                     X
 Kentucky                X                                X                                              X                               X                                     X
 Louisiana                               X                X                                                            X
 Maine                   X                                X                                              X                               X                                     X
 Maryland                                X
 Massachusetts           X                                X                                              X             X                                                       X
 Michigan                                X                                X             X                                                 X                X
 Minnesota                               X                                X             X                                                                                      X
 Mississippi             X                                X                             X                                                X                 X
 Missouri                X                                X                                              X                               X                                     X
                                                                                                                                                               continued on next page




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                                         41
Table A-3: Challenges States Reported With Current Laws and Regulations, by State (Continued)


                                                                                           Lack of enforceable
                                                                                                                                                     Lack of rules requiring third
                  Medicare 1-year timely filing     TRICARE 1-year timely filing     penalties for third parties      Inability to bill Medicare
                                                                                                                                                        parties to reimburse in a
                                          limit                            limit      that refuse to reimburse                           directly
                                                                                                                                                                   timely manner
                                                                                                         States
                      Challenging




                                      Challenging




                                                       Challenging




                                                                       Challenging




                                                                                     Challenging




                                                                                                      Challenging




                                                                                                                    Challenging




                                                                                                                                       Challenging




                                                                                                                                                        Challenging




                                                                                                                                                                            Challenging
                                       Somewhat




                                                                        Somewhat




                                                                                                       Somewhat




                                                                                                                                        Somewhat




                                                                                                                                                                             Somewhat
                         Very




                                                          Very




                                                                                        Very




                                                                                                                       Very




                                                                                                                                                           Very
 State




 Montana                                 X                X                                              X
 Nebraska                                X                                                               X                                X                                    X
 Nevada                  X                                X                                              X                               X                                     X
 New
 Hampshire               X                                X                             X                              X
 New Jersey              X                                X                                              X                               X                                     X
 New Mexico                              X                               X                               X                                                                     X
 New York                X                                X                                              X                               X                                     X
 North Carolina          X                                X                                                                              X                                     X
 North Dakota                            X                                X                              X                               X                                     X
 Ohio                                    X                                                                             X                                                      X
 Oklahoma                                X                                X                              X                                X                                   X
 Oregon                  X                                X                             X                              X                                                       X
 Pennsylvania            X                                X                                              X             X                                                       X
                                                                                                                                                               continued on next page




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                                         42
Table A-3: Challenges States Reported With Current Laws and Regulations, by State (Continued)


                                                                                                 Lack of enforceable
                                                                                                                                                           Lack of rules requiring third
                     Medicare 1-year timely filing      TRICARE 1-year timely filing       penalties for third parties      Inability to bill Medicare
                                                                                                                                                              parties to reimburse in a
                                             limit                             limit        that refuse to reimburse                           directly
                                                                                                                                                                         timely manner
                                                                                                               States
                         Challenging




                                          Challenging




                                                           Challenging




                                                                             Challenging




                                                                                           Challenging




                                                                                                            Challenging




                                                                                                                          Challenging




                                                                                                                                             Challenging




                                                                                                                                                              Challenging




                                                                                                                                                                               Challenging
                                           Somewhat




                                                                              Somewhat




                                                                                                             Somewhat




                                                                                                                                              Somewhat




                                                                                                                                                                                Somewhat
                            Very




                                                              Very




                                                                                              Very




                                                                                                                             Very




                                                                                                                                                                 Very
 State




 Rhode Island                                X                                  X                              X                                X                                 X
 South Carolina             X                                 X                              X
 South Dakota               X                                 X                               X                              X                                   X
 Tennessee                  X                                 X                                                X                               X                                  X
 Texas                      X                                 X                                                X             X
 Utah                                        X                                  X             X                                                                                   X
 Vermont                    X                                 X                                                              X
 Virginia                   X                                 X                                                X                               X                                  X
 Washington                                  X                                                X                                                 X
 West Virginia              X                                 X                                                X                               X                                  X
 Wisconsin                                                                                    X                              X                                                   X
 Wyoming                    X                                 X                               X                              X                                   X
 Source: OIG analysis of State data collection instrument responses, 2012.




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)                                               43
                  APPENDIX 8
                  Agency Comments
                                                                                                               - - ­- ----­ --­

                   DEPARTMENT OF HEALTH & HUMAN SERVICES                                       Centers for Medu::ere & Medtcald &91'\'ir.:P.a

                   ----­------ ­   ···----- -- · ~--- -----        ..--4-·-------­              -------·-------·-·
                                                                                               Admiui'i!.JattYr
                                                                                               Wasflington, OC 2020 '1




                 HATE: 	         OCT 1 8 2D11
                 TO: 	           Daniel R. Levinson
                                 Inspector General
                                                        /S/
                 FROM: 	         Ml!lilyu Tl<V~
                                 Acting /l.i:lm'ioistr~to r

                 SUBJECl': 	 Office ofinspector General (OlG) Draft Report: "Medicaid Third-Party Liability
                             Savings lncrc<L~ed But Chalkngcs Remain'' (OEI-05-11-00130)


                 Thank you for the opportunity to review and comment on the OIG draft report entitled
                 " Medicaid Third-Party liability Savings Inc reased But Challenges Remain" (OEI-05-.ll-00130).
                 The purpose of this repmt was tn determine trends in state Medicaid agencies' cost-avoided and
                 recovered <Jmounts from 2001 through 2011, t.o describe !·a ctors that influenced the stat~::s' ability
                 to cost avoid or recover funds. and to estimate the amount of money that remains at risk of nor
                 hei ng recovered .

                 Th.: Deficit Reduction Act of 2005 (I)RA), enacted in the middle of the review period for this
                 report, contnincd provisions to enhance the states' ability to identify and recover p<l)lmenr trom
                 li able third parties of Medicaid hcneficiaries. The Jaw clarified the existing list of liable third
                 parties ro incluJe entities such as pharmacy hendit managers. The DRA :tlso re.quired states to
                 have laws requiring health insurers to provide c:overage information to state McdiC<iid programs,
                 accept the stllte Medicaid programs' right of recovery, not dt~ny <>r refuse to pay claims for
                 procl:dural reasons, and till ow states to submit claims for a minimum of three years from the dale
                 of service. Since the passage of the DRA, the Cemers for Medicare & Medicaid Services (CMS)
                 has takt~n many stcph to assist states and health insurers to meet these requirements.

                  The OI.G found that Medicaid third party liability (TPL) savings totaled $529 billion from 2001
                  W 20 11. Savings grew 114 percent during the period, while Medicaid expenditures increased by
                  47 percent. For the majority of the period (2002- 2010), there was no significant change in the
                  numh~::r of Medicaid beneficiaries with third party resou rces.


                  Most of the growth in Tl'l. savings came from cost avoidance: $512 billion for the review
                  period. with Medicare accounring for 80 pt~ rcent of these savings. Cost avoidance from third
                  party health insurers increased from .10 percent in :!O()'J to 18 percent in 2011 , which can rno~t
                  likely be attributed ro the DRA 's eiTect on states' ability to identity third party coverage.




Medicaid Third-Party Liability Savings Increased , But Challenges Remain (OEI-05-11-00130)                                                      44
Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)   45
Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)   46
Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)   47
Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)   48
Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)   49
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Ann Maxwell, Regional
                   Inspector General for Evaluation and Inspections in the Chicago regional
                   office; Thomas F. Komaniecki, Deputy Regional Inspector General; and
                   Laura Kordish, Deputy Regional Inspector General.
                   Nicole Hrycyk served as the team leader for this study, and Mara Werner
                   served as the lead analyst. Other principal Office of Evaluation and
                   Inspections staff from the Chicago regional office who contributed to the
                   report include Jonathan Jones and Margarita Rodriguez. Central office
                   staff who provided support include Heather Barton, Kevin Farber, and
                   Debra Roush.




Medicaid Third-Party Liability Savings Increased, But Challenges Remain (OEI-05-11-00130)      50
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
